Peter W. Homer
phomer@homerbonner.com
305 350 5139
December 20, 2019

VIA OVERNIGHT MAIL AND ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk, United States Supreme Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Publishers Business Services, Inc., et al. v. Federal Trade Commission,
No. 19-507

Dear Mr. Harris:

I represent petitioners in the above-styled matter. In accordance with this Court’s
Rule 15.5, petitioners hereby waive the 14-day waiting period for distributing the petition
and respondent’s brief to the Court.
Thank you for your time, attention, and assistance.

Respectfully submitted,
s/Peter W. Homer

cc: Noel J. Francisco, Esq. (by U.S. mail and email)

Peter W. Homer

1200 Four Seasons Tower | 1441 Brickell Avenue | Miami Florida 33131
305 350 5100 | www homerbonner.com

